                    September 8, 1999


                    GEORGE L. LOPEZ
                    ACTING VICE PRESIDENT, SOUTHWEST AREA
                    OPERATIONS

                    SUBJECT:      Management Advisory Report - Tulsa Chimney
                                  Hill Carrier Annex
                                  (Report Number FA-MA-99-001)

                    This is our report on the review of the lease negotiations for
                    the Tulsa Chimney Hill Carrier Annex leased facility in
                    Tulsa, Oklahoma. The report provides responses to a
                    General Accounting Office Hotline Referral alleging that the
                    United States Postal Service (USPS) was incompetent in its
                    negotiations of the lease contract for the facility. The
                    referral showed that the facility was leased approximately
                    four or five years ago. The building is large enough to
                    accommodate a full service post office with window service
                    and post office boxes, but none have been installed.
                    Instead, the USPS pays a private business to operate a
                    contract station down the street in a hardware store. The
                    referral also showed that several years ago an agreement
                    was made that within a year there would be full service at
                    the facility. However, that service has not been
                    implemented.

Results in Brief	   The review confirmed that the USPS signed a lease for a
                    facility to house the Tulsa Chimney Hill Carrier Annex
                    operations. The building has 37,560 square feet of net floor
                    space. However, the operations required only 23,000
                    square feet. As a result, USPS is leasing over 14,000
                    square feet of unused floor space at the Chimney Hill
                    Carrier Annex. In addition, district officials did not report the
                    unused floor space as required by USPS policy. Further,
                    officials did not conduct a Retail Analysis Program Survey to
                    determine the need for retail operations and customer
                    attitude in the Tulsa, Oklahoma area.




                             Restricted Information
Tulsa Chimney Hill Carrier Annex                                                  FA-MA-99-001



                              We suggested that the Vice President of Southwest Area
                              Operations report unused space and allow the District to
                              resubmit the request to incorporate retail operations at
                              Chimney Hill Annex.

Background                    On February 15, 1994, USPS Oklahoma District officials
                              requested that the Dallas Facilities Service Office obtain an
                              existing building containing approximately 20,000 net
                              interior square feet for a carrier annex. At the time, the
                              building was needed to relieve overcrowded conditions at
                              the Southeast and Southside USPS stations in Tulsa. Once
                              obtained, the building was designated as the Chimney Hill
                              Carrier Annex to process mail for ZIP Code Zones 74133
                              and 74137. Zone 74133, consisting of 25 city and 7 rural
                              routes, was transferred from Tulsa Southeast Station. Zone
                              74137, consisting of 6 city and 10 rural routes was
                              transferred from Tulsa Southside Station. Our review of
                              documents and interviews confirmed that the functions for
                              the two zones were moved to the Chimney Hill facility due to
                              extreme space deficiencies at the previous locations.

                              On November 18, 1994, the Dallas Facilities Service Office
                              signed a lease for a building to process mail for the Tulsa
                              Chimney Hill Carrier Annex operations. The building has
                              37,560 square feet of net floor space, which was
                              approximately 14,000 square feet more than the 23,000
                              square feet required. The overall ground site area is
                              177,289 square feet.

                              The annual rental cost is $225,360. The lease's fixed term
                              is November 19, 1994 to November 18, 2004, with renewal
                              options after each five-year period. After the first five-year
                              period the annual rental cost will be $262,920, and
                              $281,700 after the second five-year period. The lease also
                              has several purchase options beginning after the first five-
                              year period. One option allows the building to be purchased
                              at a price of $2,250,000 if made at the end of the first five-
                              year period. Our review of documentation revealed that the
                              USPS has initiated action to exercise that purchase option.

                              According to the Tulsa Postmaster and District officials, they
                              were unsuccessful in 1996 and 1998, in their efforts to
                              convert the Chimney Hill facility to a full service operation.




                                                 2
                                       Restricted Information
Tulsa Chimney Hill Carrier Annex                                                                      FA-MA-99-001



Objective, Scope, and             The objective of our review was to determine whether USPS
Methodology                       management properly negotiated the lease contract for the
                                  Tulsa Chimney Hill Carrier Annex operations. During the
                                  review, we conducted interviews with USPS officials in the
                                  Dallas Facilities Service Office, Tulsa Chimney Hill Carrier
                                  Annex in Tulsa, Oklahoma, the Oklahoma District office and
                                  the Southwest Area office in Dallas, Texas. We reviewed
                                  policies and procedures on retail postal operations from the
                                  Oklahoma District Office and contracting files at the Dallas
                                  Purchasing Office. We also made site visits to the Chimney
                                  Hill Carrier Annex and the Contract Postal Unit retail
                                  operations located in a hardware store in Tulsa, Oklahoma.
                                  This review was conducted from April 1999 through August
                                  1999, in accordance with the President’s Council on
                                  Integrity and Efficiency, Quality Standards for Inspections.

Observations                      Our review did not identify any issues associated with the
                                  lease negotiation for the Tulsa Chimney Hill Carrier Annex.
                                  However, we did find that USPS is leasing over 14,000
                                  square feet of unused floor space at the Chimney Hill
                                  Carrier Annex. In addition, district officials did not report the
                                  unused floor space as required by USPS policy. Further,
                                  officials did not conduct a Retail Analysis Program Survey to
                                  determine the need for retail operations and customer
                                  attitude in the Tulsa, Oklahoma area.

Unused Space Not                  Our review revealed that the District has not reported the
Reported                          14,000 square feet of unused space at the Chimney Hill
                                  facility to the USPS Facilities Realty Asset Management
                                  Office as required by USPS policy (Paragraph 516.34,
                                  USPS Administrative Support Manual, dated 27 August
                                  1998). As a result, the USPS paid about $200,0001 for
                                  unused leased floor space from November 1994 to June
                                  1999.

                                  Oklahoma City USPS District officials acknowledged that
                                  the facility's capacity exceeds their operations requirement.
                                  However, they stated that the Dallas Facilities Service
                                  Office contracting officer told them there were no other
                                  existing buildings available in the preferred area. As a
                                  result, he selected a grocery store to accommodate their
                                  needs. The annual rental cost for this building is $225,360

1
  This cost is based on the annual lease cost of $225,360 divided by 70,295 square feet of total building space, times
the unused floor space of 14,000 square feet, times a 4.5-year period ($225,360 / 70,295 x 14,000 square feet x 4.5).



                                                          3
                                              Restricted Information
Tulsa Chimney Hill Carrier Annex                                                                        FA-MA-99-001



                                     for a 10-year term with renewal options after each five-year
                                     period. The lease also has several purchase options
                                     beginning after the first five-year period. Our review of
                                     documentation revealed that an effort is under way to
                                     exercise the purchase option for $2,250,000. The Tulsa
                                     Postmaster recommended converting the facility to a full
                                     service operation in late 1995, however, the Oklahoma
                                     District Office did not accept the recommendation. District
                                     officials stated that USPS Southwest Area (Area) policy,
                                     memorandum dated April 19, 1999, Subject: Retail Policy,
                                     does not allow for new retail operations in USPS facilities.2
                                     The policy stipulates that retail operations in the Southwest
                                     Area have led to increased retail hours and capital
                                     expenditures that have adversely impacted the Southwest
                                     Area's performance. However, the policy also stipulates
                                     that retail operations may be considered under other
                                     extenuating circumstances, if evaluated thoroughly.

Customer Concerns                    In addition, District officials did not conduct a Retail Analysis
not Included in                      Program Survey as required by chapter 121 of the Postal
Decision-Making                      Operations Manual to determine the need for retail
Process                              operations and customer attitudes in the Tulsa, Oklahoma
                                     area. However, officials stated that they did not think the
                                     survey was necessary. As a result, the Southwest Area
                                     Capital Investment Committee’s decision to disapprove
                                     retail service at Chimney Hill was not based on all the
                                     relevant information applicable to that location. Southwest
                                     Area officials stated that inclusion of the information might
                                     have made a difference in the decision-making process.

                                     Chimney Hill Annex officials stated that they have received
                                     numerous complaints (written and oral) from customers
                                     about the lack of retail service at the Chimney Hill location
                                     and the fact that they must travel to a nearby Contract
                                     Postal Unit for retail service. The Contract Postal Unit,
                                     located in a congested hardware store, is responsible for
                                     serving the Chimney Hill area of Tulsa. Officials also stated
                                     that written complaints were forwarded to the District.

                                     Officials from the Southwest Area Capital Investment
                                     Committee stated that the decision to disapprove retail
                                     service at Chimney Hill was based on the information
                                     provided by the District. That information did not include a
                                     Retail Study on Chimney Hill or the list of customer
2
    District officials eventually submitted the request to the Southwest Area Capital Investment Committee.



                                                            4
                                                 Restricted Information
Tulsa Chimney Hill Carrier Annex                                                                              FA-MA-99-001



                                       complaints received by Tulsa over the years. Southwest
                                       Area officials stated that having information on the lack of
                                       adequate postal retail services in the area might have made
                                       a difference in the decision-making process. The
                                       Southwest Area Capital Investment Committee is one of the
                                       committees responsible for ensuring new projects comply
                                       with the Area policy.

Suggestions                            We offer the following suggestions:

                                       The Vice President, Southwest Area Operations should:

                                       1. Report unused (leased and owned) space to the USPS
                                          Realty Asset Management office to identify marketable
                                          interests and determine the highest and best use of the
                                          property.

                                       2. Consider allowing the District to resubmit3 the Tulsa
                                          request for retail operations at the Chimney Hill Annex
                                          to the Capital Investment Committee.

Summary of                             We have summarized management’s comments and
Management’s                           included the full text in Appendix A. The Vice President,
Comments                               Southwest Area Operations agreed with our suggestion of
                                       reporting unused space to the USPS Realty Asset
                                       Management office. The excess space at Chimney Hills
                                       Carrier Unit was reported to the Realty Asset Management
                                       Manager on August 26, 1999. He also stated that
                                       Southwest Area would identify excess space on future
                                       alternate projects. In addition, all Districts in the Southwest
                                       Area have been asked to declare excess space as required.
                                       The Vice President further stated that they have coordinated
                                       with the Headquarters Asset Management office to address
                                       our suggestion on reporting unused space because he feels
                                       this issue is applicable beyond the Chimney Hill location.

                                      For the present time, the Vice President decided against
                                      using our suggestion to improve the quality of retail service
                                      in the Tulsa area. This is because they are currently
                                      pursuing an alternative that includes partnering with Mail




3
    If resubmitted, ensure that District officials include all required information to support the request.



                                                               5
                                                   Restricted Information
Tulsa Chimney Hill Carrier Annex	                                                    FA-MA-99-001



                               Boxes, Etc. However, the Vice President stated they will
                               monitor the Mail Boxes, Etc. alternative. If it does not
                               provide desired results, they will pursue other alternatives
                               that may include retail operations at the Chimney Hill facility.

Evaluation of                  Overall, management's comments are responsive to our
Management’s                   suggestions. We would, however, appreciate being advised
Comments                       of the outcome of your proposed plan to partner with Mail
                               Boxes, Etc. as it relates to the quality of customer service in
                               your districts.

                               We appreciated the cooperation and courtesies provided by
                               your staff during this review. If you have any questions,
                               please contact Anthony T. Cannarella, Director, Facilities or
                               me at (703) 248-2300.



                                 //Signed//
                               Sylvia L. Owens
                               Assistant Inspector General
                                for Revenue/Cost Containment

                               cc: 	 Rudolph K. Umscheid
                                     Alan B. Kiel
                                     John R. Gunnels




                                                  6
                                        Restricted Information
Tulsa Chimney Hill Carrier Annex                            FA-MA-99-001




Major Contributions
to This Report




                                             7
                                   Restricted Information
Tulsa Chimney Hill Carrier Annex                            FA-MA-99-001




                                             8               Appendix A
                                   Restricted Information
Tulsa Chimney Hill Carrier Annex                            FA-MA-99-001




                                             9               Appendix A
                                   Restricted Information
Tulsa Chimney Hill Carrier Annex                            FA-MA-99-001




                                            10               Appendix A
                                   Restricted Information
